               Taxpayers Identified As Serving in Combat
               Zones Were Properly Afforded Tax Benefits,
               but Account Identification and Maintenance
                     Processes Need Improvement

                                     April 2005

                       Reference Number: 2005-40-077




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        April 28, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                           Pamela J. Gardiner
                                      Deputy Inspector General for Audit

      SUBJECT:                        Final Audit Report - Taxpayers Identified As Serving in Combat
                                      Zones Were Properly Afforded Tax Benefits, but Account
                                      Identification and Maintenance Processes Need Improvement
                                      (Audit # 200440012)

      This report presents the results of our review of the Internal Revenue Service (IRS)
      handling of Combat Zone tax accounts.1 The overall objective of this review was to
      determine whether the IRS is correctly handling the accounts and tax returns of
      taxpayers who have been deployed in a Combat Zone. Since the inception of the first
      modern income taxation in the United States in 1913, the Congress has granted special
      Federal income tax benefits for members of the Armed Forces in World War I, World
      War II, Korea, Vietnam, the Persian Gulf, Bosnia, Kosovo, and now Afghanistan and
      Iraq. These benefits include extensions of time to file tax returns or pay taxes and the
      suspension of any audit or collection activities. The IRS also provides these benefits to
      civilian taxpayers supporting military operations.
      To get these special benefits, both military and civilian taxpayers had to notify the IRS
      they were serving in a Combat Zone. This could be done by writing “Combat Zone” on
      the tax return when it was filed or contacting the IRS via telephone, correspondence, or
      email using a special email address set up solely for use by Combat Zone taxpayers. In
      2003, the IRS coordinated with the Department of Defense (DOD) to receive payroll
      information on military service members who had entered or exited a Combat Zone.
      This information allows the IRS to update tax account information on a more current
      basis and with less burden on the military taxpayers. Civilians serving in a Combat
      Zone still need to notify the IRS directly to get the special benefits.




      1
          See Appendix IV of the report for a listing of designated Combat Zones.
                                                         2

In summary, the IRS is providing tax benefits to taxpayers identified on the IRS Master
File2 as being in a Combat Zone. When the IRS is notified a taxpayer is serving in a
designated Combat Zone, it places an indicator3 on the taxpayer’s account that extends
the due dates for filing returns and paying taxes, suppresses any notices, and suspends
audit and collection activities. This Combat Zone active indicator remains on the
taxpayer’s account until the IRS receives information the taxpayer is no longer in a
Combat Zone, at which time the indicator changes from active to historical and normal
processing of the account resumes.
While taxpayers who were identified on the IRS Master File as serving in a Combat
Zone received the benefits and special treatment they are entitled to, we identified a
processing issue that affects the accuracy of the Combat Zone indicators and the
overall effectiveness and efficiency of the Combat Zone program.
Our sample results indicate over 58 percent of the 520,000 taxpayers with an active
Combat Zone indicator are incorrect (i.e., the taxpayers are no longer serving in a
Combat Zone). An incorrect, active Combat Zone status allows taxpayers to receive
special tax treatment they are no longer entitled to receive, such as filing late, not being
audited, or having collection action suspended.
The inaccurate indicators were caused by weaknesses in the account identification and
maintenance processes. The IRS was not identifying and correcting error records
created when attempting to update the Master File with DOD information. These errors
could occur for various reasons, such as missing information or mismatches between
names or Social Security Numbers. In addition, the Combat Zone indicators were not
being reviewed annually to identify and correct inaccurate indicators. Another impact of
these conditions is that taxpayers who are serving in a Combat Zone may not have the
indicators input on their Master File accounts and would be at risk of not getting the
Combat Zone benefits they deserve. Unfortunately, the error records were not kept by
the IRS, so we could not determine the extent, if any, of this condition.
We discussed these issues with the IRS during the course of our audit, and it has taken
steps to correct the conditions we identified. The IRS is working to improve the process
of updating of the Master File with the DOD information and has indicated that the
problem with the missing Combat Zone exit dates has been corrected. In addition, the
IRS is developing a computer program to automatically analyze and correct inaccurate
Combat Zone indicators on an annual basis, which it plans to implement in May 2005.
To further help ensure Combat Zone indicators are correct, we recommended the
Commissioner, Wage and Investment Division, continue to work on perfecting the
information on Combat Zone participation that is used to update the Master File, such
as identifying and correcting other types of error records than those missing exit dates;
develop a quality review program to ensure the accounts being analyzed for inaccurate


2
  The Master File refers to the IRS Individual Master File database that maintains transactions or records of
individual tax accounts.
3
  An indicator is placed on the taxpayer’s account to alert IRS employees and programs the taxpayer is or has been
in a Combat Zone.
                                             3

indicators by the new computer program are processed correctly; and conduct the
account review on an annual basis.
Management’s Response: IRS management is pleased with our finding that the IRS is
properly providing the appropriate tax benefits to taxpayers serving in Combat Zones.
The IRS agrees with our recommendations and has initiated corrective action.
Specifically, the IRS stated it corrected its programming for downloading entry and exit
dates from the DOD. In addition, to correct other types of error records beyond missing
exit dates, management stated a verification program will be run, prior to the download,
during which various account information is verified prior to the posting of the exit date.
Management stated a one-time cleanup computer program will be implemented
May 31, 2005, to identify any accounts with an entry date that is greater than 3 years
old and no exit date. This cleanup will help ensure Combat Zone indicators are
accurate. A sample review will be conducted on the cases identified by the cleanup to
ensure they accurately reflect the exit date of 3 years from the entry date.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement




                                                Table of Contents


Background ............................................................................................... Page 1
Taxpayers Identified As Serving in Combat Zones Receive
Special Treatment ..................................................................................... Page 4
Inaccurate Combat Zone Indicators Are Not Being Corrected .................. Page 5
         Recommendations 1 and 2: ............................................................Page 9

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Geographic Areas Considered Combat Zones .................. Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 15
  Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
       but Account Identification and Maintenance Processes Need Improvement

                                  Since the inception of the first modern income taxation in
Background
                                  the United States (U.S.) in 1913, the Congress has granted
                                  special Federal income tax benefits for members of the
                                  Armed Forces in World War I, World War II, Korea,
                                  Vietnam, the Persian Gulf, Bosnia, Kosovo, and now
                                  Afghanistan and Iraq.1 These benefits include additional
                                  time to file tax returns or pay taxes and the suspension of
                                  any audit or collection activities. The Internal Revenue
                                  Service (IRS) also provides these benefits to civilian
                                  taxpayers supporting military operations.
                                                  Figure 1: Soldier in Combat Zone




                                        Source: United States Budget Report 2005.

                                  Personnel serving in a Qualified Hazardous Duty2 Area
                                  receive the same tax treatment under the Internal Revenue
                                  Code as personnel serving in a Combat Zone. The Congress
                                  has designated certain countries as Qualified Hazardous
                                  Duty Areas and has specified that each designated country
                                  will lose its status as a Qualified Hazardous Duty Area
                                  when the Department of Defense (DOD) stops paying
                                  members either imminent danger or hostile fire pay. Thus
                                  the DOD, by controlling the payment of imminent danger or
                                  hostile fire pay to military members, can also control when
                                  military members will no longer be entitled to the special
                                  tax benefits.
                                  Any income earned by members of the U.S. Armed Forces
                                  in a Combat Zone is not taxable and is reflected as such on
                                  their Wage and Tax Statements (Form W-2).

                                  1
                                   See Appendix IV for a listing of designated Combat Zones.
                                  2
                                   Hazardous duty is defined as extraordinarily arduous living conditions,
                                  excessive physical hardship, or unhealthful conditions.
                                                                                                  Page 1
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                                 Figure 2: Example of Form W-2
                                                Showing Nontaxable Combat Wages




                                Source: Information based on our review of sample cases. Taxable
                                wages in Box 1 are reduced by the Combat Zone pay indicated by the
                                “Q” code in Box 14.

                                An individual serving in an official capacity in a Combat
                                Zone will have the payment and collection of any Federal
                                tax liability suspended during the period the individual is in
                                the Combat Zone, plus any continuous period of
                                hospitalization due to injury or illness received while in the
                                Combat Zone, plus the next 180 days thereafter. The
                                deadlines for filing tax returns, paying taxes, filing claims
                                for refund, and taking other actions with the IRS are
                                automatically extended for the same period.
                                These tax benefits are also provided by the IRS to members
                                of the Merchant Marine, Red Cross personnel, and other
                                civilian taxpayers who are supporting military operations.
                                Nonmilitary individuals who worked in a Combat Zone
                                must notify the IRS before they receive the special Combat
                                Zone benefits. This notification or “self-identification” can
                                be done by writing “Combat Zone” at the top of the tax
                                return when it is filed, contacting the IRS via telephone or
                                correspondence, or using a special email address the IRS
                                has set up for Combat Zone participants.




                                                                                             Page 2
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                         Figure 3: Example of Combat Zone Identification
                                        on U.S. Individual Income Tax Return (Form 1040)




                                Source: Information based on our review of sample cases.

                                In special situations, members of the Armed Forces will
                                work in areas outside a Combat Zone but in support of
                                Combat Zone actions. These Armed Forces members are
                                also eligible to receive extensions of tax-related deadlines.
                                The DOD codes the qualifying income of these individuals
                                as combat pay, so they are receiving all the special
                                tax-related benefits of Combat Zone activity instead of just
                                deadline extensions. This relieves the IRS of having to
                                determine what income qualifies for any special treatment.
                                Recently, the DOD began sending information to the IRS
                                for military service members who have entered or exited a
                                Combat Zone. The IRS began processing this information
                                in late Calendar Year (CY) 2003 and early CY 2004; it
                                should receive monthly updates of military Combat Zone
                                activity, which will then be incorporated into the IRS
                                Master File3 data. This monthly information from the DOD
                                will allow the IRS to update its Master File records on a
                                more current basis, which should result in less taxpayer
                                burden for members of the Armed Forces. This will also
                                allow the IRS to have a more automated process for
                                granting deadline extensions and other special treatment to
                                Combat Zone participants.
                                This review was performed using national data and was
                                coordinated with the Wage and Investment (W&I) Division

                                3
                                 The Master File refers to the IRS Individual Master File database that
                                maintains transactions or records of individual tax accounts.
                                                                                                Page 3
  Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
       but Account Identification and Maintenance Processes Need Improvement

                                  Compliance and Submission Processing functions in
                                  Atlanta, Georgia, and the Fresno, California, Compliance
                                  Site during the period April through September 2004. The
                                  audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS is providing the tax benefits legislated by the
Taxpayers Identified As Serving
                                  Congress to taxpayers who have been identified on the IRS
in Combat Zones Receive
                                  Master File as being in a Combat Zone. When the IRS
Special Treatment
                                  receives the Combat Zone entry date from the DOD or the
                                  taxpayer, the IRS updates the Master File with an indicator4
                                  on the taxpayer’s account so the special benefits legislated
                                  by the Congress can be granted automatically. The current
                                  IRS processes extend the deadlines for filing tax returns and
                                  paying taxes, suppress any notices, prevent audit activities,
                                  and suspend collection actions (accumulation of interest and
                                  penalties). These tax benefits are extended for 180 days
                                  after the IRS is notified a taxpayer has exited a Combat
                                  Zone.
                                  The IRS receives monthly updates of DOD information.
                                  The information consists of the entry date into and exit date
                                  from a Combat Zone, the Combat Zone location code, and
                                  the taxpayer’s Social Security Number and name. Using
                                  this information, the IRS can compute tax return due dates
                                  and any applicable interest or penalty based on the
                                  additional time legislated because of Combat Zone activity.
                                  The IRS also has other ways to assist taxpayers who serve
                                  in Combat Zones or Qualified Hazardous Duty Areas.
                                  Taxpayers who indicate their Combat Zone activity directly5
                                  to the IRS will have their accounts coded in the same
                                  manner as the military taxpayers, allowing them to receive
                                  the appropriate tax benefits. The IRS has also created an
                                  email address so taxpayers in a Combat Zone can send



                                  4
                                    An indicator is placed on the taxpayer’s account to alert IRS
                                  employees and programs the taxpayer is or has been in a Combat Zone.
                                  5
                                    Taxpayers who directly contact the IRS about their Combat Zone duty
                                  are referred to as “self-identified.”
                                                                                                Page 4
  Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
       but Account Identification and Maintenance Processes Need Improvement

                                  notification of their Combat Zone deployment directly to the
                                  IRS.
                                  While the IRS is providing the tax benefits legislated by the
                                  Congress to taxpayers identified on the Master File as being
                                  in a Combat Zone, we determined the Combat Zone
                                  indicators are not always accurate to identify taxpayers who
                                  have entered or exited a Combat Zone. We identified two
                                  areas in the account identification and maintenance
                                  processes that could be improved.
                                  The IRS was not identifying and correcting its Master File
Inaccurate Combat Zone
                                  records to accurately reflect that individuals are no longer in
Indicators Are Not Being
                                  a Combat Zone. The Combat Zone active indicator remains
Corrected
                                  on a taxpayer’s account until the IRS receives information
                                  the taxpayer is no longer in a Combat Zone, at which time
                                  the indicator changes from active to historical and normal
                                  processing of the account resumes. As of February 2004,
                                  the IRS Master File had over 520,000 taxpayer accounts
                                  with active Combat Zone indicators.
                                  We sampled 200 of these active accounts and determined
                                  over 58 percent appear to be inaccurate based on available
                                  information (i.e., the taxpayers are no longer serving in a
                                  Combat Zone). These taxpayers will continue to receive
                                  special tax benefits they are no longer entitled to until the
                                  Master File records are corrected.
                                  Another possible condition is taxpayer accounts that should,
                                  but do not, reflect current service in a Combat Zone because
                                  the information did not get recorded on the IRS Master File.
                                  Taxpayers whose accounts do not reflect current service in a
                                  Combat Zone are at risk of having penalties and interest
                                  charged when they are eligible for extensions of time to pay
                                  and file their tax returns. These taxpayers may also be
                                  subject to compliance actions, such as audits or collection
                                  activities, that should be suspended. Unfortunately, the
                                  error records were not kept by the IRS, so we could not
                                  determine the extent, if any, of this condition.
                                  We identified two specific causes for the inaccurate Combat
                                  Zone indicators on the Master File.




                                                                                          Page 5
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                Errors created when updating DOD information to the
                                Master File are not resolved
                                Recently, the DOD began sending information to the IRS
                                for military service members who have entered or exited a
                                Combat Zone. When the IRS processed this information,
                                some of the data did not update to the Master File. These
                                errors could occur for various reasons, such as mismatches
                                between names or Social Security Numbers. Error records
                                were created by the computer programs for those
                                individuals whose information was not updated, but the IRS
                                did not develop programs or procedures to correct these
                                error records when it requested the DOD information.
                                To obtain the maximum benefit from the DOD information,
                                the IRS needs to resolve the error records so taxpayer
                                accounts accurately reflect Combat Zone service.
                                Master File accounts with Combat Zone indicators have
                                not been periodically reviewed and corrected
                                Through 2001, the IRS would annually run a computer
                                program that identified active Combat Zone accounts on the
                                Master File. This program would generate a listing of
                                taxpayers to whom the IRS would send letters to verify
                                whether the taxpayers were still actively serving in a
                                Combat Zone. Based on responses to the letters and other
                                research, the IRS would either keep the active Combat Zone
                                indicators on the taxpayer accounts or change the status to
                                inactive.
                                However, in December 2001, the IRS made a policy
                                decision to stop running the annual Combat Zone
                                verification program. This decision was made to minimize
                                the number of sensitive situations in which verification
                                letters might be received by military personnel serving in
                                Afghanistan or the Persian Gulf.
                                In 2003, the IRS began working with the DOD to obtain
                                Combat Zone entry and exit date information to further
                                minimize the number of taxpayer contacts required to
                                validate Combat Zone status. However, because of these
                                decisions, the Combat Zone validation program was not run
                                for CYs 2002 and 2003, and consequently, active Combat
                                Zone accounts were not reviewed or corrected.

                                                                                     Page 6
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                During this time, the number of accounts in Combat Zone
                                status grew tremendously. In CY 2001, there were a little
                                over 46,000 accounts with active Combat Zone indicators
                                on the Master File. As of February 2004, there were over
                                520,000 accounts with active Combat Zone indicators on the
                                Master File. While the largest percentage of increase in
                                active Combat Zone indicators was the increase in military
                                personnel sent to Afghanistan and the Persian Gulf during
                                this time, there were obviously a very large number of
                                accounts with inaccurate indicators that had not been
                                reviewed and corrected. Due to this increased number of
                                active Combat Zone accounts, resources to work these
                                accounts also became an issue.
                                Figure 4: Taxpayer Accounts With Active Combat Zone Indicators

                                                        Active Combat Zone Accounts


                                    600000

                                    500000

                                    400000

                                    300000

                                    200000

                                    100000

                                           0

                                    Year       1996      1997     1998     1999     2000     2001      2004
                                    Accounts   29,966    32,974   28,795   36,287   56,009   46,211   522,720



                                Source: CYs 1996 through 2001 information from the IRS. No IRS data
                                for CYs 2002-2003. CY 2004 information from our analysis of active
                                Combat Zone accounts on the IRS Master File as of February 2004.

                                Our analysis of sample cases indicated the following
                                conditions exist for inaccurate active Combat Zone
                                indicators.
                                •      Taxpayers have Combat Zone entry dates as far back as
                                       1990 but have no exit dates.
                                •      Married taxpayers do not have all the correct exit
                                       information posting to their accounts when one or both
                                       have served in a Combat Zone.



                                                                                                         Page 7
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                •   Military taxpayers file tax returns indicating Combat
                                    Zone activity after the DOD exit date information has
                                    already posted.
                                •   Civilian taxpayers who self-identify have not been
                                    contacted by the IRS for the past 3 years for the exit
                                    dates.
                                The cumulative effect of not correcting these accounts on an
                                annual basis is two-fold. First, some taxpayers, military and
                                civilian, are being given special tax benefits when they are
                                no longer eligible because their IRS accounts still indicate
                                they are in a Combat Zone. Second, the number of
                                taxpayers listed as active Combat Zone participants who
                                self-identify about their Combat Zone activity will continue
                                to grow each year because the IRS is not contacting them
                                for the dates they left the Combat Zones.
                                Recent Management Actions: During and after the
                                completion of our audit work, the IRS took or is planning
                                actions that should help alleviate the conditions presented
                                above.
                                •   The Director, Compliance, W&I Division, was recently
                                    made responsible for the Combat Zone program. We
                                    believe having an IRS executive responsible for the
                                    program should help the IRS improve its processes and
                                    coordination efforts internally and with the DOD.
                                •   The IRS indicated that, as of January 2005, it had
                                    corrected the missing exit date problem with the DOD
                                    information we identified during the audit. While the
                                    IRS has taken corrective action for missing exit dates, it
                                    is still not identifying and correcting other types of error
                                    records.
                                •   The IRS stated it is in the process of developing a
                                    computer program that will analyze and correct the
                                    inaccurate Combat Zone account indicators. According
                                    to the IRS, the computer program is scheduled to be
                                    implemented in May 2005.




                                                                                         Page 8
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                Recommendations

                                To help ensure Combat Zone indicators are accurate, the
                                Commissioner, W&I Division, should:
                                1. Continue working to further perfect the information on
                                   Combat Zone participation that is used to update the
                                   Master File, such as identifying and correcting other
                                   types of error records than those missing exit dates.
                                Management’s Response: The IRS stated it corrected its
                                programming for downloading entry and exit dates from the
                                DOD. In addition, to correct other types of error records
                                beyond missing exit dates, management stated a verification
                                program is run, prior to the download, during which various
                                account information is verified prior to the posting of the
                                exit date.
                                2. Develop a quality review program to review a sample of
                                   the accounts that are closed automatically using the new
                                   program to ensure the reversal of the active Combat
                                   Zone indicator is correct. In addition, the plan should
                                   include a sample review of the remaining active
                                   accounts to verify the program is not missing any
                                   accounts that should be reversed. The program and the
                                   quality reviews should be conducted annually.
                                Management’s Response: Management stated a one-time
                                cleanup computer program will be implemented
                                May 31, 2005, to identify any accounts with an entry date
                                that is greater than 3 years old and no exit date. The system
                                will automatically turn off the Combat Zone indicators that
                                were set by an entry date or self-identified tax return. This
                                cleanup, in combination with use of DOD entry and exit
                                dates, will help ensure Combat Zone indicators are accurate.
                                A sample review will be conducted on the cases identified
                                by the cleanup to ensure they accurately reflect the exit date
                                of 3 years from the entry date. Letters will be sent to
                                civilians to ensure they are not still serving in a Combat
                                Zone.




                                                                                       Page 9
     Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
          but Account Identification and Maintenance Processes Need Improvement

                                                                                       Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Internal Revenue Service (IRS)
is properly handling the accounts and tax returns of taxpayers who have been deployed in a
Combat Zone.1 To accomplish our objective, we:
I.         Determined whether Combat Zone indicators and freeze codes were properly posted to
           the taxpayers’ accounts.
           A. Determined whether the Department of Defense (DOD) information sent to the IRS
              posted to taxpayers’ accounts and set the Combat Zone indicator correctly.
           B. Determined whether self-identified taxpayer information posted to the taxpayers’
              accounts set the indicator correctly.
           C. Confirmed whether the appropriate Combat Zone freeze code (-C) was applied to the
              taxpayers’ accounts.
II.        Reviewed a sample of active (currently in a Combat Zone) accounts for appropriate
           IRS activity.
           A. Reviewed a statistically valid sample of 400 accounts (sample details below) with a
              Combat Zone indicator of “1” (Open) to analyze the tax account information and
              determine whether the IRS Submission Processing function is correctly processing
              designated Combat Zone returns (granting additional time to file tax return
              documents, not assessing interest or penalties during the additional filing and
              payment grace period, etc.).
           B. Analyzed tax account information to determine whether the IRS Collection and
              Examination functions were correctly handling designated Combat Zone accounts
              (suspending collection actions, extending Collection Statute Expiration Date [the
              latest date the IRS is allowed to take collection action], closing or suspending
              examination activity, etc.).
III.       Reviewed a sample of historical (no longer in a Combat Zone) accounts for appropriate
           IRS activity.
           A. Reviewed a statistically valid sample of 400 accounts (sample details below) with a
              Combat Zone indicator of “2” (Closed) to determine whether the IRS Submission
              Processing function correctly processed the tax returns (enforced normal due dates to
              file tax returns, assessed interest or penalties when appropriate, etc.).



1
    See Appendix IV for a listing of designated Combat Zones.
                                                                                             Page 10
    Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
         but Account Identification and Maintenance Processes Need Improvement

         B. Analyzed tax account information to determine whether the IRS Collection and
            Examination functions correctly handled the accounts (resumed normal collection
            actions and examination activities).
The overall population of Combat Zone tax accounts was obtained from the IRS Master File2
information as of February 2004 where the ‘Combat Indicator’ field was not blank or a “0.” This
produced a population of 522,720 accounts showing an active Combat Zone indicator (taxpayer
is currently in a Combat Zone) and 1,071,272 accounts showing a historical Combat Zone
indicator (taxpayer is no longer in a Combat Zone).
These population numbers were used to create 2 statistically valid samples of 400 cases each
(400 for active and 400 for historical) to be used for our review. After we had reviewed about
one-half of each sample, the IRS agreed with our findings and we stopped at 200 cases in each
sample. This changed our confidence level from 95 percent ±5 percent at a 50 percent estimated
error rate to 95 percent ±6.93 percent at a 50 percent estimated error rate.
In addition, a sample of the DOD data was obtained from the IRS to assist with the review of the
active Combat Zone indicator cases. The sample we received from the IRS was for any DOD
data that occurred in Calendar Year (CY) 2003 so we could compare CY 2003 IRS data to
CY 2003 DOD data.




2
  The Master File refers to the IRS Individual Master File database that maintains transactions or records of
individual tax accounts.



                                                                                                                Page 11
 Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
      but Account Identification and Maintenance Processes Need Improvement

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Glory Jampetero, Lead Auditor
Kathleen Hughes, Senior Auditor
Andrea McDuffie, Auditor
Kevin O’Gallagher, Information Technology Specialist
Dorothy Richter, Information Technology Specialist




                                                                                         Page 12
 Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
      but Account Identification and Maintenance Processes Need Improvement

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
   Division SE:S:CGL&D
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Senior Operations Advisor, Wage and Investment Division SE:W:S:W




                                                                                   Page 13
    Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
         but Account Identification and Maintenance Processes Need Improvement

                                                                                                 Appendix IV


                          Geographic Areas Considered Combat Zones1

Combat Zones are designated by an Executive Order from the President as areas in which the
United States Armed Forces are engaging or have engaged in combat. There are currently three
such Combat Zones:
      •   Arabian Peninsula Areas, beginning January 17, 1991 – the Persian Gulf, Red Sea,
          Gulf of Oman, part of the Arabian Sea, Gulf of Aden, and the countries of Bahrain, Iraq,
          Kuwait, Oman, Qatar, Saudi Arabia, and the United Arab Emirates.
      •   Kosovo Area, beginning March 24, 1999 – Federal Republic of Yugoslavia (Serbia and
          Montenegro), Albania, the Adriatic Sea, and the Ionian Sea north of the 39th Parallel.
      •   Afghanistan, beginning September 19, 2001.
Three parts of the former Yugoslavia (Bosnia-Herzegovina, Croatia, and Macedonia) were
designated as a Qualified Hazardous Duty Area, to be treated as if it were a Combat Zone,
beginning November 21, 1995.
In addition, the Department of Defense designated the following locations as Combat Zones due
to their direct support of Operations Enduring Freedom and Iraqi Freedom:
      •   Pakistan, Tajikistan, and Jordan – September 19, 2001.
      •   Incirlik Air Base, Turkey – September 21, 2001.
      •   Kyrgyzstan and Uzbekistan – October 1, 2001.
      •   Philippines (troops related to Operation Enduring Freedom) – January 9, 2002.
      •   Yemen – April 10, 2002.
      •   Djibouti – July 1, 2002.
      •   Turkey – January 1, 2003.
      •   Israel – January 1 through July 31, 2003.
      •   The Mediterranean Sea east of 30° East longitude – March 19 through July 31, 2003.
      •   Jordan – March 19, 2003.
      •   Egypt – March 19 through April 20, 2003.




1
    Information from the Internal Revenue Service web site (www.irs.gov) as of September 2004.


                                                                                                      Page 14
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement

                                                                        Appendix V


                  Management’s Response to the Draft Report




                                                                              Page 15
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement




                                                                              Page 16
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement




                                                                              Page 17
Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits,
     but Account Identification and Maintenance Processes Need Improvement




                                                                              Page 18
